   DEFENSE HEALTH PROGRAM FUNDS ADMINISTERED AS
            PART OF THE TRICARE PROGRAM

Report No. D-2001-110                          April 30, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:
                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CHAMPUS               Civilian Health and Medical Program of the Uniformed Services
CPIRI                 CHAMPUS Price Inflation Reimbursement Index
DHP                   Defense Health Program
MCS                   Managed Care Support
PBD                   Program Budget Decision
TMA                   TRICARE Management Activity
                      Office of the Inspector General, DoD
Report No. D-2001-110                                                   April 30, 2001
  (Project No. D2000FD-0256)

              Defense Health Program Funds Administered as
                      Part of the TRICARE Program

                               Executive Summary

Introduction. In the DoD Appropriations Act for FY 2000, Congress appropriated
$11.15 billion for the Defense Health Program. On July 13, 2000, Congress enacted
Public Law No. 106-246, “Making Appropriations for Military Construction, Family
Housing, and Base Realignment and Closure for the Department of Defense for Fiscal
Year Ending September 30, 2001, and for Other Purposes.” Public Law No. 106-246
appropriated an additional $1.3 billion to cover critical shortfalls in funding managed
care support contracts. In House Conference Report No. 106-710, which accompanied
Public Law No. 106-246, conferees directed the Inspector General, DoD, in
coordination with the General Accounting Office, to examine the fund control practices
of the TRICARE (the military health care system) program. In addition, DoD was
directed to report to the congressional Defense committees within 60 days after
enactment on whether DoD violated fiscal law or departmental regulations related to the
shortfalls. Public Law No. 106-246, section 105, specifically appropriated
$615.6 million of the $1.3 billion for the Defense Health Program with the following
stipulations specified in section 106.

       •   In section 106(a)(1), Congress earmarked $90.3 million to fund the
           unanticipated increases in TRICARE contract costs that were properly
           chargeable to FYs 1998 and 1999.

       •   In section 106(a)(2), Congress earmarked $525.3 million to fund the
           unanticipated increases in TRICARE contract costs that were properly
           chargeable to FYs 2000 and 2001.

       •   In section 106(b), DoD was to notify the congressional Defense committees
           before charging an obligation or making an adjustment.

       •   In section 106(c), DoD was to submit a report to the congressional Defense
           committees on the obligations made no later than 30 days after the end of
           FY 2000.

Objective. Our objective was to evaluate the fund control practices of the TRICARE
program related to the unanticipated increases covered by Public Law No. 106-246,
sections 105 and 106.
Results. We could not fully evaluate the fund control practices of the TRICARE
program related to the unanticipated increases covered by Public Law No. 106-246,
sections 105 and 106. TRICARE had obligated $569.7 million of the $615.6 million
appropriated by Congress to settle numerous claims as of January 31, 2001. Many
claims were settled under a global settlement; therefore, a clear audit trail was not
available to determine whether TRICARE maintained effective fund controls and
accountability over the obligations related to the unfunded requirements. The following
is a list of the $480.2 million of obligations that we could identify by specific purpose,
amount, and line(s) of accounting made against sections 105 and 106.

       •   About $4.6 million of the $20.8 million obligated against the $90.3 million
           authorized in section 106(a)(1) could be traced to specific purposes (a bid
           price adjustment) as of January 31, 2001.

       •   About $475.6 million of the $525.3 million authorized in section 106(a)(2)
           could be traced to specific purposes as of January 31, 2001. Even then,
           those purposes were not as originally identified for funding and were not, in
           some cases, unanticipated.

Regarding section 106(b), we determined that DoD notified the congressional Defense
committees by October 30, 2000, of its intent to obligate $540 million to cover
managed care support contract costs. However, as of April 5, 2001, DoD had not
submitted its report on the amounts obligated, as required by section 106(c). In
addition, as of April 5, 2001, DoD had not provided its report to Congress on whether
TRICARE had violated fiscal law or departmental regulations related to the critical
shortfalls in funding. The absence of those two DoD reports affected our ability to
determine what DoD had established as its baseline for evaluating any potential
violations of fiscal law and departmental regulations. See the Finding section for
details on the audit results.

Management Comments. Although no comments were required, the Acting Assistant
Secretary of Defense (Health Affairs) responded to a draft of this report and stated that
he concurred overall with the finding and conclusions in the draft report. He also
stated that the draft report accurately represented the identification, validation, and use
of the $615.6 million portion of the FY 2000 Defense Health Program Emergency
Supplemental funding. See the Management Comments section for the complete text of
the comments.




                                             ii
Table of Contents

Executive Summary                                             i


Introduction
     Background                                               1
     Objective                                                3

Finding
     TRICARE Fund Control Practices                           4

Appendixes
     A. Audit Process
         Scope and Methodology                                7
         Prior Coverage                                       7
     B. Report Distribution                                   8

Management Comments
     Acting Assistant Secretary of Defense (Health Affairs)   9
Background
    In the DoD Appropriations Act for FY 2000, Congress appropriated
    $11.15 billion for the Defense Health Program (DHP). On July 13, 2000,
    Congress enacted Public Law No. 106-246, “Making Appropriations for
    Military Construction, Family Housing, and Base Realignment and Closure for
    the Department of Defense for Fiscal Year Ending September 30, 2001, and for
    Other Purposes” (the Act). The Act appropriated an additional $1.3 billion to
    cover critical shortfalls in managed care support (MCS) contracts. In House
    Conference Report No. 106-710, which accompanied the Act, conferees
    directed the Inspector General, DoD, in coordination with the General
    Accounting Office, to examine the fund control practices of the TRICARE (the
    military health care system) program. In addition, DoD was directed to report
    to the congressional Defense committees within 60 days after enactment on
    whether DoD violated fiscal law or departmental regulations related to the
    shortfalls. The Act, section 105, specifically appropriated $615.6 million of the
    $1.3 billion for the DHP with the following stipulations specified in section 106.

           •   In section 106(a)(1), Congress earmarked $90.3 million to fund the
               unanticipated increases in TRICARE contract costs that were
               properly chargeable to FYs 1998 and 1999.

           •   In section 106(a)(2), Congress earmarked $525.3 million to fund the
               unanticipated increases in TRICARE contract costs that were
               properly chargeable to FYs 2000 and 2001.

           •   In section 106(b), DoD was to notify the congressional Defense
               committees before charging an obligation or making an adjustment.

           •   In section 106(c), DoD was to submit a report to the congressional
               Defense committees on the obligations made no later than 30 days
               after the end of FY 2000.

    Origin of the Act. DoD did not formally request the appropriation made in the
    Act. Rather, Congress made the appropriation after hearing testimony from
    DoD officials. In February and March 2000, the Secretary of Defense, Deputy
    Secretary of Defense, Under Secretary of Defense (Comptroller), and Assistant
    Secretary of Defense (Health Affairs) testified before various Senate and House
    of Representatives committees and subcommittees that DoD needed to amend
    the FY 2001 budget. DoD officials particularly sought a reprogramming of
    $228.2 million from the Services and identified an additional $626.5 million
    necessary to pay MCS contract claims that were not included in the FY 2001
    President’s Budget. According to the testimony, approximately $626.0 million
    was needed to fund the pharmacy bid price adjustment that Congress directed in
    the FY 2000 Defense Authorization Act, Public Law No. 106-65, section 701,
    October 5, 1999, and to settle additional claims covering MCS contract costs
    from FYs 1998 through 2001.




                                        1
    Background on the Testimony. The DoD testimony and funding requirements
    that were presented to Congress related to Program Budget Decision (PBD) 041,
    which sought to amend the FY 2001 President’s Budget. The Deputy Secretary
    of Defense approved PBD 041 on December 20, 1999. PBD 041 included a
    reprogramming of $228.2 million from the Services to cover shortfalls in
    funding military treatment facility pharmacy costs and deferred a decision on
    providing additional funds to pay for what were termed as “uncertain” liabilities
    related to MCS contracts. DoD deferred the decision on requesting additional
    funds to cover MCS contract shortfalls until the Government liability had been
    firmly determined. DoD did not submit the reprogramming to Congress.
    Instead, Congress appropriated $615.6 million to cover the reported MCS
    contract shortfalls for FYs 1998 through 2001, totaling $387.6 million, and the
    $228 million that would have been reprogrammed from the Services.

    MCS Contract Shortfalls. TRICARE first recognized a $626.5 million budget
    shortfall for covering FY 1998 through FY 2001 MCS contract costs in late
    calendar year 1999 or early 2000. In October 1999, TRICARE personnel
    requested MCS contractors to provide information on potential claims and
    requests for equitable adjustments during a TRICARE Access Summit in
    Denver, Colorado. We believe those claims constituted the “uncertain”
    requirements mentioned in PBD 041. Table 1 lists the original contract issues
    that were raised as a result of the TRICARE Access Summit. The amounts
    shown are the Government’s estimates.

                         Table 1. Initial Undated Requirements
                                            (in millions)

                 Bid Price Adjustment and Request for Equitable Adjustment Issues

                        Funding Issue                                           Total FYs 1998-2001

CHAMPUS1 Price Inflation Reimbursement Index (CPIRI)                                          $ 69.0
Resource sharing                                                                                68.5
Telephone consultations2                                                                       110.0
Meridian audit3                                                                                 85.8
Pharmacy                                                                                       228.2
Contract extensions                                                                             65.0
    Total initial requirement                                                                 $ 626.5
1
  Civilian Health and Medical Program of the Uniformed Services.
2
  Contractors claimed that they should have been compensated for telephone consultations provided
  to health care beneficiaries.
3
  The TRICARE Management Activity contracted with Meridian to perform audits of health care
  claims processed by the MCS contractors. In certain instances, the audits disclosed that providers
  under contract had been underpaid and the contractors were entitled to additional payment.


    As of July 13, 2000, however, the issues to be resolved changed significantly,
    although the total amount decreased by $0.9 million (Table 2). For example,
    the CPIRI issue was no longer listed as part of the $625.6 million shortfall,
    while the bid price adjustment in regions 3 and 4 emerged.

                                               2
                           Table 2. July 13, 2000 Requirements
                                            (in millions)

                  Bid Price Adjustment and Request for Equitable Adjustment Issues
                 Funding Issue                                               Total FYs 1998-2001

  Bid Price Adjustment #3, Regions 3,4                                                   $ 67.2
  Resource sharing                                                                          22.5
  Telephone consultations                                                                  119.5
  Meridian audit                                                                            46.8
  Pharmacy                                                                                 281.8
  Contract extensions                                                                       87.8
     Total requirement                                                                   $ 625.6


  And as of September 13, 2000 (Table 3), while the issues marginally changed, the
  total amount increased by $94.0 million and the CPIRI issue reemerged.

                       Table 3. September 13, 2000 Requirements
                                            (in millions)

                  Bid Price Adjustment and Request for Equitable Adjustment Issues

                       Funding Issue                                         Total FYs 1998-2001

  CHAMPUS Price Inflation Reimbursement Index (CPIRI)                                    $120.3
  Bid Price Adjustment #3, Regions 3,4                                                     67.2
  Resource sharing                                                                         22.5
  Telephone consultations                                                                 105.5
  Meridian audit                                                                           46.2
  Pharmacy                                                                                270.1
  Contract extensions                                                                      87.8
     Total requirement                                                                   $719.6


     Tables 1–3 reflect the changes in the funding issues and amounts that affected
     the TRICARE MCS contract program from late 1999 to September 13, 2000.
     According to a TRICARE Management Activity (TMA) representative, those
     changes were the result of ongoing negotiations with MCS contractors.


Objective
     Our objective was to evaluate the fund control practices of the TRICARE
     program related to the unanticipated increases that were covered by sections 105
     and 106 of the Act. See Appendix A for a discussion of the audit scope and
     methodology and for prior coverage.




                                               3
            TRICARE Fund Control Practices
            We could not fully evaluate the TRICARE fund control practices related
            to the unanticipated increases that were covered by sections 105 and 106
            of the Act. TRICARE had obligated $569.7 million of $615.6 million
            appropriated by Congress to settle numerous MCS contract claims as of
            January 31, 2001. However, TRICARE did not use all of the funds for
            the purposes originally identified. In addition, many claims were settled
            under a global settlement; therefore, a clear audit trail was not available
            to determine whether TRICARE maintained effective fund controls and
            accountability over the obligations related to the unfunded requirements.
            Moreover, DoD had not complied with the legislation by providing its
            report on the amount of obligations incurred as of October 30, 2000, as
            required by section 106(c), and its report on whether TRICARE violated
            fiscal laws or departmental regulations by September 13, 2000, as
            required in the Conference Report. As of April 5, 2001, according to a
            TMA representative, the two reports were awaiting final decisions on
            how to best apply the additional resources, the outcome of the global
            settlement, and DoD approval of the recommended use of the funds.

            TRICARE did not use all of the funds for the purposes originally
            identified because the requirements changed during ongoing negotiations
            with the contractors and because many of the issues originally identified
            by the contractors were folded into the global settlement. TRICARE
            personnel attempted to negotiate and settle claims as the contractors
            presented the issues, which resulted in the shift in requirements. A clear
            audit trail was not available because TRICARE used a global settlement
            to negotiate a number of contract change orders, requests for equitable
            adjustment, and other claims. The global settlement did not separately
            identify the specific issues, amounts paid, and applicable line(s) of
            accounting.

            As a result, we were unable to fully examine the fund control practices
            related to the unanticipated increases in the MCS contract requirements
            that generated the funding in sections 105 and 106 of the Act. The
            absence of the two DoD reports to Congress further impeded our ability
            to determine what DoD and TRICARE established as a baseline for
            evaluating any potential violations of fiscal law and departmental
            regulations.


Obligations Traceable to the Appropriation
     As of January 31, 2001, TRICARE had obligated $569.7 million of
     $615.6 million to settle numerous MCS contract claims. However, we were
     able to match only $480.2 million of the $569.7 million in obligations to the
     specific issues that TRICARE had identified as unfunded requirements. The
     $480.2 million included $4.6 million in obligations made under
     section 106(a)(1) of the Act, while the balance, $475.6 million, was obligated


                                         4
     under section 106(a)(2). The remaining $89.5 million was used to pay
     agreements reached in the global settlement, where the specific purposes,
     amounts, and line(s) of accounting were not separately identifiable.
     Specifically, the $480.2 million was matched as follows.

            •   About $4.6 million of the $20.8 million obligated against the
                $90.3 million authorized in section 106(a)(1) could be traced to
                specific purposes (a bid price adjustment) as of January 31, 2001.

            •   About $475.6 million of the $525.3 million authorized in
                section 106(a)(2) could be traced to specific purposes as of January
                31, 2001. Even then, those purposes were not as originally identified
                for funding and were not, in some cases, unanticipated. Those
                purposes included the settlement of:

                    •   pharmacy bid price adjustments, $135.5 million;
                    •   regular bid price adjustments, $125.0 million;
                    •   resource sharing, $8.8 million;
                    •   mental health claims, $5.1 million;
                    •   other (excess claims volume), $1.2 million; and
                    •   the exercise of contract options, $200.0 million.

     Of those obligations listed, two of the six purposes (regular bid price
     adjustments and contract options) totaling $325.0 million should have been
     anticipated and requested in the President’s Budget. According to a TMA
     representative, those purposes were anticipated; however, the funds that were
     reserved for those purposes were used to fund the military treatment facility
     requirements and the bid price adjustments were higher than anticipated in the
     President’s Budget. The representative stated that she believed the Conference
     Report authorized the use of section 106(a)(2) funds for the contract options and
     regular bid price adjustments. In our opinion, the Conference Report and the
     legislation do not appear to be fully compatible. The representative also stated
     that the $135.5 million in pharmacy bid price adjustments was an unanticipated
     increase created by the additional pharmacy benefit enacted in the FY 2000
     Defense Authorization Act. The remaining $15.1 million related to
     unanticipated increases in MCS contract costs that were individually settled
     requests for equitable adjustments.


Effect of the Global Settlement
     Approximately $89.5 million of the $569.7 million was paid to liquidate
     numerous change orders, requests for equitable adjustments, and other claims.
     Those agreements included settlement of the telephone consultation and
     Meridian audit issues. However, the global settlement did not provide a clear
     delineation of the specific purpose, amount, and line(s) of accounting that
     applied to sections 105 and 106 of the Act. In addition, TRICARE personnel
     stated that during the negotiation of the global settlement both parties might have


                                          5
    agreed to drop or modify some issues while settling others. A global settlement
    is an acquisition practice that brings many different issues to resolution.
    However, the method limits the management visibility and accountability for the
    individual issues covered in the settlement by specific amount and line(s) of
    accounting. For example, a global settlement might include different change
    orders, requests for equitable adjustment, and other claims that cut across
    different fiscal year appropriations. Unless the global settlement clearly
    delineates each agreement by amount and fiscal year line(s) of accounting,
    normal fund control visibility is not maintained.


Summary
    Because of the changing MCS contract requirements, we could not fully
    evaluate the TRICARE fund control practices related to the use of funds made
    available under sections 105 and 106 of the Act. However, we can generally
    conclude that TRICARE used the funds to pay for MCS contract services. A
    number of the requirements were not foreseeable, and even though TRICARE
    personnel knew of potential liabilities, the MCS contractors controlled when the
    claims were submitted for negotiation and settlement. Regarding the use of
    global settlements, unless the contract documents (such as negotiation
    memorandums) clearly detail the issues, amounts, and line(s) of accounting
    related to each item, normal fund control visibility is not maintained


Management Comments
    Although no comments were required, the Acting Assistant Secretary of
    Defense (Health Affairs) responded to a draft of this report and stated that he
    concurred overall with the finding and conclusions in the draft report. He also
    stated that the draft report accurately represented the identification, validation,
    and use of the $615.6 million portion of the FY 2000 Defense Health Program
    Emergency Supplemental funding. For the full text of the comments, see the
    Management Comments section of the report.




                                          6
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed the TRICARE Directorate of Resource
    Management initial budget estimate that supported the testimony presented to
    various Senate and House of Representatives committees and subcommittees that
    led to the eventual enactment of Public Law No. 106-246. Using the revised
    estimate, dated July 13, 2000, that TRICARE provided as support for the final
    issues that would be covered by the emergency appropriation, we attempted to
    obtain copies of the contract files related to the negotiation and settlement of
    those contracting issues. We subsequently determined that the documentation
    received did not completely support budget shortfalls reported by DoD to
    Congress and the intended uses of the emergency appropriation. Consequently,
    we requested additional documents and met with personnel from the Office of
    the Under Secretary of Defense (Comptroller), Office of the Assistant Secretary
    of Defense (Health Affairs), and TMA to discuss more fully the circumstances
    surrounding the enactment of the legislation and its terms and conditions. Based
    on those discussions and our review of the additional documents provided to us,
    we reduced the scope of our audit to examine the end uses of the appropriation.
    We also did not review the management control program.

    Use of Computer-Processed Data. Computer-processed data were not used in
    this audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from August 2000 through March 2001 in accordance with audit standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.


Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted prior audits of TRICARE and the Defense Health Program. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports.




                                       7
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health Affairs)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform


                                           8
Acting Assistant Secretary of Defense (Health
Affairs) Comments




                    9
10
11
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
Brian M. Flynn
Byron B. Harbert
David M. Barbour
Kevin M. Roths
Lisa Rose-Pressley
Elizabeth Shifflett
